Writer’s Direct Dial:
404-458-3239
Fax: 404-651-6459

March 18, 2021
Honorable Scott Harris
Clerk of the United States Supreme Court
1 First Street, N.E.
Washington, D.C. 20543
RE: John Anthony Esposito v. Benjamin Ford, Warden, GDCP
Case No. 20-7185
Dear Mr. Harris:
Petitioner John Anthony Esposito filed his petition for writ of certiorari on February 14, 2021.
Respondent Warden’s counsel respectfully requests a seven day extension for filing a brief in
opposition to the petition for writ of certiorari. Respondent’s brief is currently due in this Court
on March 22, 2021. During the briefing period, undersigned counsel filed another brief in
opposition to certiorari in this Court on March 1, 2021, in the case of Leon Tollette v. Benjamin
Ford, Warden, GDCP, Case No. 20-6876. Given this responsibility, a seven day extension until
March 29, 2021, would ensure that counsel for Respondent has adequate time to properly
respond to Esposito’s petition for writ of certiorari. Opposing counsel does not oppose the
request.
Sincerely,
s/Sabrina Graham
Sabrina Graham
Senior Assistant Attorney General
cc:

Marcy Widder

